IN THE SUPREME COURT OF THE UNITED STATES
No. _________
CITY OF OKLAHOMA CITY, an Oklahoma municipal corporation, and William
Citty, in his official capacity as Chief of the Oklahoma City Police Department,
Petitioners,
v.
Calvin McCraw, G. Wayne Marshall, Mark Faulk, Trista Wilson, Neal Schindler,
Oklahoma Libertarian Party, and Red Dirt Report,
Respondents.

CERTIFICATE OF COMPLIANCE
I, Amanda B. Carpenter, counsel for petitioners and a member of the Bar of
this Court, certify that the PETITION FOR A WRIT OF CERTIORARI in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 6,228 words, excluding the parts that are exempted
by Supreme Court Rule 33.1(d), as needed.

January 27, 2021

/s/ Amanda B. Carpenter
Amanda B. Carpenter
Deputy Municipal Counselor-OKC
200 N. Walker Ave., STE 400
Oklahoma City, OK 73102
Tel.: (405) 297-2451
Fax: (405) 297-3851
amanda.carpenter@okc.gov

